APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Unpublished Opinion of
The United States Court of Appeals
For the Fourth Circuit
entered August 2, 2019 .................................. 1a
Judgment of the
United States Court of Appeals for
The Fourth Circuit
entered August 2, 2019 .................................. 8a
Order of
The United States Court of Appeals
For the Fourth Circuit
Re: Denying Petition for Rehearing
entered September 17, 2019 .......................... 9a
Judgment in a Criminal Case
entered September 13, 2018 ........................ 10a

1a
[ENTERED AUGUST 2, 2019]
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-4697
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
MARCUS TERRELL MARSH,
Defendant - Appellant.
Appeal from the United States District Court for the
District of South Carolina, at Columbia. Terry L.
Wooten, Senior District Judge. (3:17-cr-01197-TLW-1)

Submitted: July 22, 2019

Decided: August 2, 2019

Before

and

KING,
Circuit Judges.

FLOYD,

QUATTLEBAUM,

Affirmed by unpublished per curiam opinion.

2a
Arthur Kerr Aiken, Columbia, South Carolina, for
Appellant. Sherri A. Lydon, United States Attorney,
Stacey D. Haynes, Assistant United States Attorney,
OFFICE OF THE UNITED STATES ATTORNEY,
Columbia, South Carolina, for Appellee.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Following the denial of a motion to suppress,
Marcus Terrelle Marsh pled guilty pursuant to a plea
agreement to being a felon in possession of a firearm
in violation of 18 U.S.C. § 922(g)(1) (2012). The
Government notified Marsh that he was subject to an
enhanced sentence pursuant to the Armed Career
Criminal Act, 18 U.S.C. § 924(e) (2012). As part of the
plea agreement, Marsh reserved the right to appeal
the denial of the motion to suppress and any
determination at sentencing concerning his status as
an armed career criminal. At sentencing, the district
court overruled Marsh’s objection to his status as an
armed career criminal and sentenced him to 180
months in prison. Marsh noted this timely appeal.
Marsh contends that the district court erred in
denying his motion to suppress. He argues that
Corporal Brandon Eggleston of the Benedict College
Police Department did not have a valid constable’s
commission and was outside of his jurisdiction when
Eggleston stopped him. In reviewing the denial of a
motion to suppress, “we review legal conclusions de
novo and factual findings for clear error.” United
States v. Seerden, 916 F.3d 360, 365 (4th Cir. 2019).

3a
“In doing so, we consider the evidence in the light
most favorable to the Government.” Id.
A court reviewing for clear error may not
“reverse a lower court’s finding of fact simply
because [it] would have decided the case
differently. Rather, a reviewing court must ask
whether, on the entire evidence, it is left with
the definite and firm conviction that a mistake
has been committed.”
United States v. Wooden, 693 F.3d 440, 451 (4th Cir.
2012) (quoting Easley v. Cromartie, 532 U.S. 234, 242
(2001)).
The district court found that Eggleston’s
constable commission was valid and he was within his
jurisdiction when he stopped Marsh on July 25, 2017.
In South Carolina, campus police “officers must be
commissioned as constables pursuant to Section 23-160 and take the oath of office prescribed by law and
the state Constitution for those officers.” S.C. Code
Ann. § 59-116-20 (2004). The duration of
appointments is governed by a separate statute:
All appointments of deputies, constables,
security guards, and detectives appointed
pursuant to this section without compensation
expire sixty days after the expiration of the
term of the Governor making the appointment.
Each Governor shall reappoint all deputies,
constables, security guards, and detectives who
are regularly salaried as provided for by law
within sixty days after taking office unless the

4a
deputy, constable, security guard, or detective
is discharged with cause as provided for by law.
S.C. Code Ann. § 23-1-60(B) (Cum. Supp. 2018).
Governor Nikki Haley issued Eggleston’s
commission on April 26, 2015.
She resigned in
January 2017, and Henry McMaster assumed the
office. Governor McMaster did not issue a new
commission to Eggleston. Marsh argues, therefore,
that Eggleston’s commission expired in March 2017,
60 days after Governor Haley’s resignation.
We
disagree.
Eggleston’s
commission
“expire[d] sixty days after the expiration of the term
of the Governor making the appointment.” S.C. Code
Ann. § 23-1-60(B). At the time of the stop, the fouryear term to which Governor Haley was elected had
not expired. Thus, Eggleston had a valid constable’s
commission when he stopped Marsh. See 1965 S.C.
Op. Atty. Gen. 108, 1965 WL 8665 (May 5, 1965)
(“[S]uch appointments continue for the term to which
the Governor was elected and do not expire upon
resignation of appointing Governor.”).
We also conclude that Eggleston acted within
his jurisdiction. “The jurisdiction of [campus police
officers] is limited to the campus grounds and streets
and roads through and contiguous to them.” S.C.
Code Ann. § 59-116-20. “Campus” is defined as “the
grounds and buildings owned and occupied by a
college or university for education purposes and
streets and roads through and contiguous to the
grounds.” S.C. Code Ann. § 59-116-10(1) (2004).
“Campus police officers may arrest persons outside
the territory described in [§ 59-116-10(1)] when the
person arrested has committed a criminal offense

5a
within that territory, and the arrest is made during
the person’s immediate and continuous flight from
that territory.” S.C. Code Ann. § 59-116-30(B) (2004).
After reviewing the record, we conclude that the
district court did not err in finding that Eggleston was
within his jurisdiction when he stopped Marsh.
Marsh next challenges his designation as an
armed career criminal. At sentencing, the district
court found that Marsh had three prior convictions for
a serious drug offense, which qualified him as an
armed career criminal pursuant to 18 U.S.C. § 924(e).
A defendant qualifies as an armed career criminal if
he violates § 922(g) and has three previous
convictions “for a violent felony or a serious drug
offense, or both, committed on occasions different
from one another[.]” 18 U.S.C. § 924(e)(1). A serious
drug offense includes “an offense under State law,
involving manufacturing, distributing, or possessing
with intent to manufacture or distribute, a controlled
substance . . . for which a maximum term of
imprisonment of ten years or more is prescribed by
law.” 18 U.S.C. § 924(e)(2)(A)(ii). Determining
whether an offense constitutes an ACCA predicate is
an issue of law, which we review de novo. United
States v. Burns-Johnson, 864 F.3d 313, 315 (4th Cir.),
cert. denied, 138 S. Ct. 461 (2017).
“We generally employ a categorical approach to
determine whether a prior conviction serves as a
predicate conviction under § 924(e)[.]” United States
v. Williams, 326 F.3d 535, 538 (4th Cir. 2003). The
categorical approach requires a consideration of
whether “the elements of the prior offense . . .
correspond in substance to the elements of the
enumerated offense,” irrespective of the actual facts

6a
underlying the conviction. United States v. Dozier,
848 F.3d 180, 183 (4th Cir. 2017). (alteration,
brackets, and internal quotation marks omitted). See
also Mathis v. United States, 136 S. Ct. 2243, 2257
(2016).
When a state statute is divisible, however, we
apply the modified categorical approach. Mathis, 136
S. Ct. at 2249. A statute is divisible if it “list[s]
elements in the alternative, and thereby define[s]
multiple crimes.” Id. A statute is not divisible if it
“enumerates various factual means of committing a
single element,” rather than “lists multiple elements
disjunctively.” Id. Elements of an offense “are factual
circumstances of the offense the jury must find
unanimously and beyond a reasonable doubt.”
Omargharib v. Holder, 775 F.3d 192, 198 (4th Cir.
2014) (internal quotation marks omitted).
If a state statute is divisible, a court must then
determine which crime forms the basis of the
conviction. Mathis, 136 S. Ct. at 2249. Pursuant to the
modified categorical approach, a court may consider a
“limited class of documents” approved by the Supreme
Court to determine the particular crime of conviction
(Shepard* documents). Id. The court then compares
the elements of that crime with the generic federal
definitions. Id. at 2249, 2256.
Marsh contends that his South Carolina drug
convictions do not qualify as ACCA predicates
because the statutes are not divisible and include a
prohibition on the purchase of controlled substances,
which is broader than the definition of a serious drug
*

Shepard v. United States, 544 U.S. 13 (2005).

7a
offense in the ACCA. We recently held otherwise.
United States v. Furlow,
F.3d , No. 18-4531, 2019
WL 2621773, at *4-8 (4th Cir. June 27, 2019).
Accordingly, we conclude that the state statutes at
issue are divisible, and the district court properly
considered Shepard documents to determine that
Marsh qualifies as an armed career criminal.
We therefore affirm Marsh’s conviction and
sentence. We dispense with oral argument because
the fact and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

8a
[ENTERED: AUGUST 2, 2019]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4697
(3:17-cr-01197-TLW-1)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
MARCUS TERRELLE MARSH
Defendant - Appellant

JUDGMENT
In accordance with the decision of this court,
the judgment of the district court is affirmed.
This judgment shall take effect upon issuance
of this court’s mandate in accordance with Fed. R.
App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

9a
[ENTERED SEPTEMBER 17, 2019]
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-4697
(3:17-cr-01197-TLW-1)
UNITED STATES OF AMERICA
Plaintiff – Appellee
v.
MARCUS TERRELL MARSH
Defendant - Appellant

ORDER
The court denies the petitions for rehearing
and rehearing en banc. No judge requested a poll
under Fed. R. App. P. 35 on the petition for rehearing
en banc.
Entered at the direction of the panel:
Judge King, Judge Floyd, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

10a
[ENTERED SEPTEMBER 12, 2018]
UNITED STATES DISTRICT COURT
District of South Carolina
UNITED STATES OF AMERICA
vs.
MARCUS TERRELL MARSH

)
)
)
)
)
)

JUDGMENT IN A CRIMINAL CASE
Case Number: 3:17-1197(1)
USM Number: 33070-171
Allen Burnside, FPD
Defendant’s Attorney
THE DEFENDANT
_ Pleaded guilty to count 1 of the indictment on
May 22, 2018.
Pleaded nolo contendere to count(s)
which was accepted by the court.
Was found guilty on count(s)
of not guilty.

after a plea

11a
The defendant is adjudicated guilty of these offenses:
Title and Section
18:922(g)(1), 924(a)(2)
and 924(e)

Nature of Offense
Please see indictment

Offense Ended
July 25, 2017

Count
1

The Defendant is sentenced as provided in
pages 2 through 6 of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
The defendant has been found not guilty on
count(s)
.
Count(s)
(is)
(are) dismissed on the
motion of the United States.
_ Forfeiture provision is hereby dismissed on
motion of the United States Attorney.
It is ordered that the Defendant must notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing
address until all fines, restitution, costs, and special
assessments imposed by this judgment are fully
paid. If ordered to pay monetary penalties, the
defendant must notify the court and United States
attorney of any material changes in economic
circumstances.

12a
September 11, 2018
Date of Imposition of Judgment
/s/ Terry L. Wooten
Signature of Judge
Terry L. Wooten,
Chief United States District Court
Name and Title of Judge
September 12, 2018
Date
IMPRISONMENT
The defendant is hereby committed to the
custody of the Federal Bureau of Prisons to be
imprisoned for a total term of One Hundred Eighty
(180) months.
_ The Court makes the following recommendations
to the Bureau of Prisons:
*For defendant to be placed in a Federal
Institution in South Carolina.
_ The Defendant is remanded to the custody of the
United States Marshal.
The Defendant shall surrender to the United
States Marshal for this District:
at
a.m.
p.m. on:
as notified by the United States Marshal.
The Defendant shall surrender for service of
sentence at the institution designated by the Bureau
of Prisons:

13a
before 2 p.m. on
.
as notified by the United States Marshal.
as notified by the Probation Office.
RETURN
I have executed this Judgment as follows:

Defendant delivered on
to
at
, with a certified copy of this
judgment.
UNITED STATES MARSHAL
By:
DEPUTY UNITED
STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, the
defendant shall be on supervised release for a term
of Three (3) years.

14a

MANDATORY CONDITIONS
1.

You must not commit another federal, state or
local crime.

2.

You must not unlawfully possess a controlled
substance.

3.

You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug
tests thereafter, as determined by the court.
The above drug testing condition is
suspended, based on the court’s determination
that you pose a low risk of future substance
abuse. (check if applicable)

4.

You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)

5. _ You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)
6.

You must comply with the requirements of the
Sex Offender Registration and Notification
Act (34 U.S.C. §20901, et seq.) as directed by
the probation officer, the Bureau of Prisons, or
any state sex offender registration agency in
the location where you reside, work, are a
student, or were convicted of a qualifying
offense. (check if applicable)

15a
7.

You must participate in an approved program
of domestic violence. (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as the
following conditions:
1)

The defendant shall submit to random drug
testing and treatment as administered by the
U.S. Probation Office. The defendant shall
contribute to the costs of such program not to
exceed an amount determined reasonable by
the court approved “U.S. Probation Office's
Sliding Scale for Service.”

2)

Unless able to secure stable and verifiable
employment, the defendant shall participate
in a Vocational Training or Work Force
Development Program as approved by the US
Probation Office.

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of
supervision. These conditions are imposed because
they establish the basic expectations for your
behavior while on supervision and identify the
minimum tools needed by probation officers to keep
informed, report to the court about, and bring about
improvements in your conduct and condition.
1.

You must report to the probation office in the
federal judicial district where you are
authorized to reside within 72 hours of your
release from imprisonment, unless the
probation officer instructs you to report to a

16a
different probation office or within a different
time frame.
2.

After initially reporting to the probation office,
you will receive instructions from the court or
the probation officer about how and when you
must report to the probation officer, and you
must report to the probation officer as
instructed.

3.

You must not knowingly leave the federal
judicial district where you are authorized to
reside without first getting permission from
the court or the probation officer.

4.

You must answer truthfully the questions
asked by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where
you live or anything about your living
arrangements (such as the people you live
with), you must notify the probation officer at
least 10 days before the change. If notifying
the probation officer in advance is not possible
due to unanticipated circumstances, you must
notify the probation officer within 72 hours of
becoming aware of a change or expected
change.

6.

You must allow the probation officer to visit
you at any time at your home or elsewhere,
and you must permit the probation officer to
take any items prohibited by the conditions of
your supervision that he or she observes in
plain view.

17a
7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless
the probation excuses you from doing so. If
you do not have full-time employment you
must try to find full-time employment, unless
the probation officer excuses you from doing
so. If you plan to change where you work or
anything about your work (such as your
position or job responsibilities), you must
notify the probation officer at least 10 days
before the change. If notifying the probation
officer at least 10 days in advance is not
possible due to unanticipated circumstances,
you must notify the probation officer within 72
hours of becoming aware of a change or
expected change.

8.

You must not communicate or interact with
someone you know is engaged in criminal
activity. If you know someone has been
convicted of a felony, you must not knowingly
communicate or interact with that person
without first getting the permission of the
probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

10.

You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific
purpose of causing bodily injury or death to
another person such as nunchakus or tasers).

18a
11.

You must not act or make any agreement with
a law enforcement agency to act as a
confidential human source or informant
without first getting the permission of the
court.

12.

If the probation officer determines that you
pose a risk to another person (including an
organization), the probation officer may
require you to notify the person about the risk
and you must comply with that instruction.
The probation officer may contact the person
and confirm that you have notified the person
about the risk.

13.

You must follow the instructions of the
probation officer related to the conditions of
supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided
me with a written copy of this judgment containing
these conditions. For further information regarding
these conditions, see Overview of Probation and
Supervised Release Conditions, available at
www.uscourts.gov.
Defendant’s Signature ____________
Date _________________
CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary
penalties under the schedule of payments on Sheet
6.

19a
Assessment
TOTALS

$100.00

JVTA
Fine Restitution
Assessment*
$

$

The determination of restitution is deferred until
An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such
determination.
The defendant must make restitution (including
community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column ·below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Restitution amount ordered pursuant to plea
agreement $
The defendant must pay interest on restitution
and a fine of more than $2,500, unless the
restitution or fine is paid in full before the fifteenth
day after the date of judgment, pursuant to 18 U.S.
C. §3612(f). All of the payment options on Sheet 5
may be subject to penalties for delinquency and
default, pursuant to 18 U.S.C. §3612(g).
The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:

20a

the

The interest requirement is waived for
fine restitution.

The interest requirement for the
restitution is modified as follows:

fine

*Justice for Victims of Trafficking Act of 2015, Pub.
L. No. 114-22.
**Findings for the total amount of losses are
required under Chapters 109A, 110, 110A, and 113A
of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A

_

Lump sum payment of
immediately, balance due
not later than

$100.00

due

, or

in accordance ‫( ܆‬C), ‫( ܆‬D, ‫( ܆‬E), or
‫ ܆‬F below; or
B

Payment to begin immediately (may be
combined with C, D, or F below); or

C

Payment in equal ____ (weekly, monthly,
quarterly) installments of $
over a period of ___ (e.g., months or years),
to commence
(e.g., 30 or 60 days)
after the date of this judgment; or

D

Payment in equal
(e.g., weekly,
monthly, quarterly) installments of $

21a
over a period of ____ (e.g., months or years),
to commence
(e.g., 30 or 60 days)
after release from imprisonment to a term
of supervision; or
E

Payment during the term of supervised
release will commence within (e.g., 30 or
60 days) after release from imprisonment.
The court will set the payment plan based.
on an assessment of the defendant's ability
to pay at that time; or

F

Special instructions regarding the payment
of criminal monetary penalties:

Unless the court has expressly ordered otherwise; if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons' Inmate Financial Responsibility
Program, are made to the clerk of court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court
cost(s):

22a
The defendant shall forfeit the defendant's
interest in the following property to the United
States:
As directed in the Preliminary Order of Forfeiture,
filed
and the said order is incorporated
herein as part of this judgment.
Payments shall be applied in the following order:
(1)
assessment,
(2)
restitution
principal,
(3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) penalties,
and (8) costs, including cost of prosecution and court
costs.

